<html>
<title> - OUTDOOR RECREATION: VAST IMPACT OF THE GREAT OUTDOORS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


         OUTDOOR RECREATION: VAST IMPACT OF THE GREAT OUTDOORS

=======================================================================
 				HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2017

                               __________

                           Serial No. 115-27



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



          Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-025 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a> 
            





                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    72

                               Witnesses

Hon. Donald S. Beyer, Jr., a Representative in Congress from the 
  Commonwealth of Virginia.......................................     8
    Prepared statement...........................................    10
Amy Roberts, Executive Director, Outdoor Industry Association....    13
    Prepared statement...........................................    16
Ginger Mihalik, Executive Director, Baltimore Chesapeake Bay 
  Outward Bound School, Outward Bound............................    23
    Prepared statement...........................................    25
Jeffrey Tooze, Vice President, Global Customs & Trade, Columbia 
  Sportswear Company.............................................    37
    Prepared statement...........................................    39
Marc Berejka, Director of Government & Community Affairs, 
  Recreational Equipment, Inc....................................    41
    Prepared statement...........................................    43
Jeremy Jones, Founder and President, Protect Our Winters.........    45
    Prepared statement...........................................    47
James Landers, Vice President of Government Affairs, Recreation 
  Vehicle Industry Association...................................    50
    Prepared statement...........................................    52

                           Submitted Material

Outdoor Industry Climate Declaration, submitted by Ms. Schakowsky    73
Letter of April 25, 2017, from Fred Ferguson, Vice President, 
  Government and Industry Relations, Vista Outdoor, to Mr. Latta, 
  submitted by Mr. Harper........................................    74
Letter of April 26, 2017, from Wayne Allard, Vice President, 
  Government Relations, American Motorcyclist Association, to Mr. 
  Latta and Ms. Schakowsky, submitted by Mr. Harper..............    76
Statement of Business Backs Low-Carbon USA, submitted by Ms. 
  Schakowsky.....................................................    78
Fact sheet, ``EPA's Clean Power Plan, Climate Change and Outdoor 
  Recreation,'' Environmental Protection Agency, submitted by Ms. 
  Schakowsky.....................................................    88

 
         OUTDOOR RECREATION: VAST IMPACT OF THE GREAT OUTDOORS

                              ----------                              


                        THURSDAY, APRIL 27, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Robert Latta 
(chairman of the subcommittee) presiding.
    Members present: Representatives Latta, Harper, Upton, 
Burgess, Lance, Guthrie, McKinley, Bilirakis, Bucshon, 
Costello, Schakowsky, Dingell, Matsui, Welch, Green, and 
Pallone (ex officio).
    Staff present: Zach Dareshori, Staff Assistant; Blair 
Ellis, Press Secretary/Digital Coordinator; Melissa Froelich, 
Counsel, Digital Commerce and Consumer Protection; Giulia 
Giannangeli, Legislative Clerk, Digital Commerce and Consumer 
Protection/Communications and Technology; Alex Miller, Video 
Production Aide and Press Assistant; Paul Nagle, Chief Counsel, 
Digital Commerce and Consumer Protection; Mark Ratner, Policy 
Coordinator; Olivia Trusty, Professional Staff Member, Digital 
Commerce and Consumer Protection; Madeline Vey, Policy 
Coordinator, Digital Commerce and Consumer Protection; Hamlin 
Wade, Special Advisor for External Affairs; Everett Winnick, 
Director of Information Technology; Michelle Ash, Minority 
Chief Counsel, Digital Commerce and Consumer Protection; Jeff 
Carroll, Minority Staff Director; Jacqueline Cohen, Minority 
Senior Counsel; David Cwiertny, Minority Energy/Environment 
Fellow; Jean Fruci, Minority Policy Advisor, Energy and 
Environment; Lisa Goldman, Minority Counsel; Caroline Paris-
Behr, Minority Policy Analyst; and Matt Schumacher, Minority 
Deputy Press Secretary and Digital Director.
    Mr. Latta. Well, good morning. And I would like to call the 
Subcommittee on Digital Commerce and Consumer Protection to 
order, and I appreciate all of our witnesses that will be 
testifying today before the committee. And at this time, the 
Chair now recognizes himself for 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    And again, good morning, and welcome to the subcommittee. 
And today the subcommittee hearing is on the outdoor recreation 
industry.
    As a current member and former chairman of the 
Congressional Sportsmen's Caucus as well as someone who 
passionately enjoys all outdoor recreation has to offer, I am 
very excited to explore the industry with you today. The 
outdoor recreation industry is both diverse and far-reaching 
spanning many of the traditional major U.S. economic sectors 
and at the core of the industry is the American consumer.
    The outdoor recreation industry thrives when Americans are 
engaged, and now more than ever we are seeing more Americans 
getting involved. Every year, millions of Americans across the 
country go outside and enjoy the great outdoors. Whether they 
are camping, fishing, hiking, hunting, or enjoying many of the 
other pastimes outdoor recreation has to offer, Americans are 
actively engaged.
    Increasingly, more and more Americans are prioritizing 
outdoor recreation and in doing so helping grow the industry. 
Vast contributions made by the outdoor recreation to the 
overall U.S. economy reflect this trend. Americans spend $887 
billion in outdoor recreation annually in helping to create 7.6 
million jobs and generate almost $125 billion in Federal, 
State, and local tax revenue.
    In my home State of Ohio where residents come to enjoy the 
Ottawa National Wildlife Refuge, the Magee Marsh Wildlife Area, 
and other public destinations near our beautiful Lake Erie, we 
have also seen significant economic benefits outdoor recreation 
has to offer. Over 53 percent of all Ohioans participate in 
outdoor recreation each year. With approximately 17.4 billion 
spent by consumers in this industry, outdoor recreation helps 
create almost 200,000 jobs and 5.1 billion in wages and 
salaries alone in Ohio.
    In recognition of the outdoor recreation industry's growing 
influence, Congress passed the Outdoor Recreation Jobs and 
Economic Impact Act last year. Under this law, the Department 
of Commerce in consultation with Federal agencies will analyze 
outdoor recreation's contributions to the Nation's gross 
domestic product.
    Through this analysis all the economic activity generated 
by manufacturers, retailers, service providers, and thousands 
of other businesses supporting the outdoor recreation across 
the country will be quantified and incorporated into an annual 
Federal assessment of the national economy. As a result, the 
policymakers and stakeholders alike will have the necessary 
information to make critical decisions that will allow this 
industry to thrive for generations to come.
    In addition to economic output, outdoor recreation offers 
many other benefits. Outdoor recreation helps Americans get fit 
and lead healthy lives. Whether it be hiking, trail running, 
rafting, or the like, outdoor recreation offers Americans many 
opportunities to get outside and be active. Recent studies also 
suggest that investments in outdoor recreation may help reduce 
crime and improve education throughout our communities.
    Another example of the positive impact outdoor recreation 
has on our communities that I am excited to hear about today is 
Outward Bound's veteran program. Outward Bound combines outdoor 
group adventures such as canoeing and hiking with facilitated 
therapeutic sessions designed to help build self-confidence, 
pride, trust, and communication skills that help veterans 
readjust upon their return.
    Today as we gather to discuss the outdoor recreation 
industry, I look forward to hearing from our witnesses on how 
outdoor recreation is driving investment, creating jobs, and 
promoting innovation and working to establish more enjoyable 
consumer experiences through outdoor activities. For many 
States and communities, outdoor recreation is the cornerstone 
of economic activity. It creates jobs and generates revenue and 
spurs vital investments. Our goal is to continue that progress 
and ensure that the outdoor recreation industry remains a 
strong pillar in the United States economy.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and welcome to the Digital Commerce and 
Consumer Protection subcommittee hearing on the outdoor 
recreation industry. As a current member and former chairman of 
the Congressional Sportsmen's Caucus, as well as someone who 
passionately enjoys all that outdoor recreation has to offer, I 
am very excited to explore this industry with you all today. 
The outdoor recreation industry is both diverse and far 
reaching, spanning many of the traditional major U.S. economic 
sectors-- and at the core of this industry is the American 
consumer. The outdoor recreation industry thrives when 
Americans are engaged and now more than ever we are seeing 
Americans get involved.
    Every year, millions of Americans across the country go 
outside and enjoy the great outdoors. Whether they are camping, 
fishing, hiking or enjoying many of the other pastimes outdoor 
recreation has to offer, Americans are actively engaged. 
Increasingly, more and more Americans are prioritizing outdoor 
recreation and, in doing so, helping grow this industry. The 
vast contributions made by outdoor recreation to the overall 
U.S. economy reflect this trend. Americans spend $887 billion 
in outdoor recreation annually helping create 7.6 million jobs 
and generating almost $125 billion in Federal, State, and local 
tax revenue.
    My home State of Ohio, where residents come together to 
enjoy the Ottawa National Wildlife Refuge, Magee Marsh Wildlife 
Area and other public destinations near the beautiful Lake 
Erie, has also seen the significant economic benefits outdoor 
recreation has to offer. Over 53% of all Ohioans participate in 
outdoor recreation each year. With approximately $17.4 billion 
spent by consumers in this industry, outdoor recreation helps 
create almost 200,000 jobs and $5.1 billion in wages and 
salaries in Ohio alone.
    In recognition of the outdoor recreation industry's growing 
influence, Congress passed the Outdoor Recreation Jobs and 
Economic Impact Act last year. Under this law, the Department 
of Commerce, in consultation with other Federal agencies, will 
analyze outdoor recreation's contributions to the Nation's 
gross domestic product. Through this analysis, all of the 
economic activity generated by manufacturers, retailers, 
service providers, and the thousands of other businesses 
supporting outdoor recreation across the country will be 
quantified and incorporated into an annual, Federal assessment 
of the national economy. As a result, policymakers and 
stakeholders alike will have the necessary information to make 
critical decisions that will allow this industry to thrive for 
generations to come.
    In addition to economic output, outdoor recreation offers 
many other benefits. Outdoor recreation helps Americans get fit 
and lead healthy lives. Whether it be hiking, trail running, 
rafting or the like, outdoor recreation offers Americans many 
opportunities to get outside and be active. Recent studies also 
suggest that investments in outdoor recreation may help reduce 
crime and improve education throughout our communities. Another 
example of the positive impact outdoor recreation has on our 
communities that I am excited to hear about today is Outward 
Bound's veteran program. Outward Bound combines outdoor group 
adventures, such as canoeing and hiking, with facilitated 
therapeutic sessions designed to build self-confidence, pride, 
trust and communication skills that help veterans readjust upon 
their return.
    Today as we gather to discuss the outdoor recreation 
industry, I look forward to hearing from our witnesses on how 
outdoor recreation is driving investment, creating jobs, 
promoting innovation, and working to establish more enjoyable 
consumer experiences through outdoor activities. For many 
States and communities, outdoor recreation is the cornerstone 
of economic activity. It creates jobs, generates revenue, and 
spurs vital investments. Our goal is to continue that progress 
and ensure that the outdoor recreation industry remains a 
strong pillar in the U.S. economy.

    Mr. Latta. And at this time, I have about a minute left, 
are there any Members on our side that would like the 
remainder? The gentleman from Indiana is recognized.
    Mr. Bucshon. Thank you, Mr. Chairman. I would just like to 
comment on the State of Indiana. Obviously this industry is 
very important to our State, specifically the RV industry in 
the northern part of our State, and I am pleased to see that 
last year was the best year that that industry has had since 
the late 1970s. So I appreciate the hearing and look forward to 
the testimony. I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back, 
and I yield back the balance of my time. And at this time I 
would like to recognize the gentlelady from Illinois, the 
ranking member of the subcommittee, for 5 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. First, let me 
welcome our colleague, Don Beyer, who is not only the sponsor 
of the bill that we passed last year, the Outdoor Rec Act, but 
also the co-chair of the Safe Climate Caucus, and appreciate 
you being here.
    Let me just add, Mr. Mullin, I recreate in Indiana. I have 
a house on the lake, so it is not just RVs, but it is a 
wonderful place in Michigan City.
    The outdoor recreation industry is an important part of our 
economy, and outdoor activities are enjoyed by 144 million 
Americans every year. Outdoor recreation in the United States 
thrives because of our tremendous natural resources and diverse 
landscape. But our natural wonders are under threat from a 
changing climate and destructive policies that we have seen by 
this administration and this Congress.
    Climate change is already having a noticeable impact. In 
Chicago, we had a snow drought this winter. There was not a 
single flake of snow in January or February. If we don't act 
now, winter will become a thing of the past. That means fewer 
people enjoy winter sports and fewer sales for the outdoor 
recreation industry.
    And summer will be worse too. When summers become too hot 
that discourages Americans from leaving air-conditioned 
buildings to experience the great outdoors. The actions of the 
Trump administration and Republicans in Congress are putting 
outdoor recreation at further risk. President Trump has moved 
to dismantle the Clean Power Plan to reduce carbon pollution 
from our power plants. Republicans in the House of 
Representatives voted to undo limits on methane emissions from 
drilling on public lands. Instead of investing in the green 
economy of the future, they are trying to reverse the progress 
we have already made.
    Where leadership from the President is lacking, the private 
sector is stepping up. Those working in the outdoor recreation 
industry know the real economic impact of our changing climate 
and they have been leaders in the fight against global climate 
change. In November, REI and Columbia joined 1,000 other 
companies on a letter to President Trump calling for 
implementation of the historic Paris climate agreement. That 
letter stated, quote, ``Failure to build a low-carbon economy 
puts American prosperity at risk. But the right action now will 
create jobs and boost U.S. competitiveness.''
    The success of the outdoor recreation industry relies on 
protecting the outdoors starting with our public lands. 
Yesterday, the Trump administration took first steps to 
undermine protection for our public lands. I joined with 
Democratic colleagues on the Energy and Commerce Committee and 
the Natural Resources Committee to call on the Department of 
the Interior to explain its review of the Antiquities Act. I 
hope our Republican colleagues will join us in efforts to make 
sure that our public lands remain protected.
    I want to thank all of our witnesses for your work to 
promote outdoor recreation and to protect our environment, and 
I look forward to hearing from you as we work to ensure that 
future generations can enjoy America's unparalleled outdoor 
spaces.
    I have a minute left. I don't know if anyone would like it. 
Yes, Congresswoman Dingell, I yield to you.
    Mrs. Dingell. Thank you, Ranking Member Schakowsky. Outdoor 
recreation is not only a driver for Michigan's economy it is a 
way of life. In my State, everyone heads up north to go 
camping, skiing, fishing, or John Dingell's case, hunting. But 
I can tell you it wasn't always like that. To give you one 
example, from 1946 to 1948, 5.9 million gallons of oil products 
were released annually into the Detroit River. It was one of 
the most polluted rivers in the country.
    Pollution was killing thousands of water fowl every year 
and threatening the local walleye and perch population. It was 
a drag on the economy. Today, the river is now home to the 
Detroit River International Wildlife Refuge, our country's only 
international refuge. The refuge is a huge driver of our local 
economy and is home to 30 species of waterfowl, 117 kinds of 
fish, and over 300 species of birds, a huge turnaround in the 
not-so-distant past.
    I mentioned the walleye population that was threatened. 
Today, the river is part of the Walleye Capital of the World 
with anglers from across the country coming to the region. It 
didn't happen by accident. It happened because we passed laws 
like the Clean Water Act, the Clean Air Act, the Endangered 
Species Act, established the Land and Water Conservation Fund, 
and dedicated significant resources to cleaning up our air and 
our water.
    As we discuss the impact of our outdoor recreation on our 
economy, I hope the committee will remember the story of the 
Detroit River and will protect the Clean Water Act and will 
strongly support Federal investments in cleanup and 
conservation. It not only helps our environment, it helps our 
economy as well. Thank you, Mr. Chairman.
    Ms. Schakowsky. And I yield back.
    Mr. Latta. Thank you very much. The gentlelady yields back. 
And at this time, the chairman of the full committee, the 
gentleman from Oregon, is not here, but when he arrives we will 
recognize him for his opening statement. And at this time, the 
Chair will recognize for 5 minutes the gentleman from New 
Jersey, the ranking member of the full committee, for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. Today's hearing is on 
the effect of outdoor recreation on the U.S. economy. It is an 
opportunity to celebrate outdoor recreation. Nothing gets 
families clamoring to be outdoors more than a day at the beach. 
And in my district with the beautiful beaches of Monmouth 
County, tourism was up more than five percent in 2016 due to 
the great weather we had last summer.
    When tourism increases, our local economy thrives. This 
hearing also gives us the opportunity to highlight the clear 
link between the economy and environmental stewardship. 
Supporting outdoor recreation means taking meaningful action to 
protect the environment. If we don't take care of our 
environment the benefits of outdoor recreation to the economy 
and to the American people will vanish.
    Severe weather events are increasing, having devastating 
effects on communities across the country. Superstorm Sandy 
wrecked shore towns in New Jersey and badly hurt our economy. 
The storm caused catastrophic property damage, destructive 
shoreline erosion, and many deaths. Temperatures are increasing 
and precipitation patterns are changing. Not only does this 
affect ski and snowboarding resorts, it leads to water 
shortages and increases the risk of fires. It also means more 
heat advisories and air quality warnings, forcing more people 
to stay indoors and avoid outdoor activities.
    We are also seeing an increase in vector-borne diseases 
like Zika, as mosquitoes and ticks migrate northward, 
increasing health risks and again giving people a reason to 
stay inside.
    So at the same time, as we pay tribute to outdoor 
recreation's positive effects on our economy we would be remiss 
if we did not acknowledge existing environmental concerns, 
including climate change, and consider how recent Federal 
policy initiatives could exacerbate those concerns. It is hard 
to know where to start.
    Just yesterday, President Trump issued an executive order 
instructing a review of national monument designations as an 
attack on the Bears Ears and Grand Staircase-Escalante National 
Monument designations by Presidents Obama and Clinton and 
perhaps others. This attack comes despite the fact that 
counties with protected lands have faster economic growth than 
those without such protections. Therefore, also yesterday, my 
colleagues and I wrote to the Interior Secretary seeking to 
ensure protection of these vital national lands.
    Then there is the Trump administration and Republican 
efforts to slash funding for the EPA, the Department of 
Interior, and other Federal agencies that have a mission to 
keep our water and air clean and Federal lands protected and 
open to the public. Republicans are also attempting to rollback 
efforts to curb carbon pollution, exit the Paris agreement, 
privatize public lands, and allow coal production and oil and 
gas drilling in national parks.
    Concerns also have been raised over the decline in 
international visitors to the United States in response to the 
administration's travel ban. Thirty five percent of 
international visitors go to national parks and monuments while 
in the United States. The administration's actions can 
seriously harm tourism and the outdoor recreation economy.
    If we want the outdoor recreation industry to thrive we 
must protect the land, water, and wildlife resources that are 
the foundations of outdoor activities. The outdoor recreation 
economy is dependent on funding for protection of and access to 
public lands and waters.
    So while I was pleased that this committee was able to pass 
the Outdoor Recreation Act last Congress, which elevated the 
issue of outdoor recreation and gave it the bipartisan support 
it deserves, I want to stress that there is more work to be 
done. Damage to the environment leads to damage to outdoor 
recreation hurting the U.S. economy, so let's work to address 
the changing climate and protect our shoreline, streams, and 
Federal lands. Thank you. And I don't think anybody else wants 
my time, so I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, today's hearing is on the effect of outdoor 
recreation on the U.S. economy. It is an opportunity to 
celebrate outdoor recreation. Nothing gets families clamoring 
to be outdoors more than a day at the beach. And in my 
district, with the beautiful beaches in Monmouth County, 
tourism was up more than 5 percent in 2016 due to the great 
weather we had last summer. When tourism increases, our local 
economy thrives, especially in more rural areas.
    This hearing also gives us the opportunity to highlight the 
clear link between the economy and environmental stewardship. 
Supporting outdoor recreation means taking meaningful action to 
protect the environment. If we do not take care of our 
environment, the benefits of outdoor recreation to the economy, 
and to the American people, will vanish.
    Severe weather events are increasing, having devastating 
effects on communities across the country. Superstorm Sandy 
wrecked shore towns in New Jersey and badly hurt our economy. 
The storm caused catastrophic property damage, destructive 
shoreline erosion, and many deaths.
    Temperatures are increasing and precipitation patterns are 
changing. Not only does this affect ski and snowboarding 
resorts, it leads to water shortages and increases the risk of 
fires. It also means more heat advisories and air quality 
warnings, forcing more people to stay indoors and avoid outdoor 
activities. We are also seeing an increase in vector-borne 
diseases like Zika as mosquitos and ticks migrate northward, 
increasing health risks and again giving people a reason to 
stay inside.
    So at the same time as we pay tribute to outdoor 
recreation's positive effects on our economy, we would be 
remiss if we did not acknowledge existing environmental 
concerns--including climate change--and consider how recent 
Federal policy initiatives could exacerbate those concerns.
    It is hard to know where to start. Just yesterday, 
President Trump issued an executive order instructing a review 
of national monument designations as an attack on the Bears 
Ears and Grand Staircase-Escalante National Monument 
designations by Presidents Obama and Clinton, and perhaps 
others. This attack comes despite the fact that counties with 
protected lands have faster economic growth than those without 
such protections. Therefore, also yesterday, my colleagues and 
I wrote Interior Secretary Ryan Zinke seeking to ensure 
protection of these vital national lands.
    Then there is the Trump administration and Republican 
efforts to slash funding for the Environmental Protection 
Agency, the Department of the Interior, and other Federal 
agencies that have a mission to keep our water and air clean 
and Federal lands protected and open to the public. Republicans 
are also attempting to roll back efforts to curb carbon 
pollution, exit the Paris Agreement, privatize public lands, 
and allow coal production and oil and gas drilling in national 
parks.
    Concerns also have been raised over the decline in 
international visitors to the United States in response to the 
administration's travel ban. Thirty-five percent of 
international visitors go to national parks and monuments while 
in the U.S. The administration's actions can seriously harm 
tourism and the outdoor recreation economy.
    If we want the outdoor recreation industry to thrive, we 
must protect the land, water, and wildlife resources that are 
the foundations of outdoor activities. The outdoor recreation 
economy is dependent on funding for, protection of, and access 
to public lands and waters.
    So while I was pleased that this committee was able to pass 
the Outdoor Rec Act last Congress, which elevated the issue of 
outdoor recreation and gave it the bipartisan support it 
deserves, I want to stress that there is more work to be done. 
Damage to the environment leads to damage to outdoor 
recreation, hurting the U.S. economy. Let's work to address the 
changing climate and protect our shorelines, streams, and 
Federal lands. Thank you.

    Mr. Latta. Well, thank you. The gentleman yields back the 
balance of his time, and that will conclude the Member opening 
statements. The Chair would like to remind all Members that, 
pursuant to committee rules, all Members' opening statements 
will be made part of the record.
    Again, I want to thank our witnesses for being with us 
today and taking the time to testify before the subcommittee. 
Today's hearing will consist of two panels. Our first witness 
panel for today's hearing will include the Honorable Don Beyer, 
who is the Representative from Virginia's 8th District. The 
gentleman will not be answering questions today from the 
subcommittee.
    The second panel of witnesses will have the opportunity to 
give opening statements followed by a round of questions from 
the committee members. Once we conclude with the opening 
statement on the first panel, we will take a brief recess for 
the second panel to be seated. We appreciate you all being with 
us today, and at this time the gentleman from Virginia's 8th 
District is now recognized for 5 minutes to give an opening 
statement. Good morning.

  STATEMENT OF HON. DONALD S. BEYER, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Beyer. Good morning. Thank you, Subcommittee Chairman 
Latta, Ranking Member Schakowsky, for holding this hearing and 
for inviting me to be here to give testimony on this really 
important outdoor recreation. No one ever said the great 
indoors. John Muir said, ``Everybody needs beauty as well as 
bread, places to play in and pray in, where nature may heal and 
give strength to body and soul.'' So beyond their impact on our 
hearts or minds, our outdoors are powerful economic drivers 
that give rise to a vast outdoor economy. I have had a long 
relationship with this outdoor economy.
    I am glad, Mr. Chairman, you mentioned Outward Bound. I am 
a 1971 January graduate of Outward Bound in the White Mountains 
of New Hampshire. I lost 33 pounds in 26 days eating everything 
I could find. I started section hiking the Appalachian Trail in 
2002. I was always going to through hike it, but I decided the 
happy marriage was more important than through hiking the AT. 
But I am up to 1,481 miles right now, so as long as you guys 
keep the calendars and the voting schedule OK, I will finish in 
2020. My legs--and then I started the Pacific Crest Trail and 
the Continental Divide Trail.
    So people like me--the hikers, bikers, climbers, skiers, 
snowboarders, RV owners, paddle boarders--we spend billions 
each year getting outside. To reiterate, Chairman, your 
numbers: $887 billion in spending, $124 billion in tax revenue, 
and almost 8 million jobs. And our policies towards public 
lands should reflect this tremendous economic success.
    So with Representatives Dave Reichert, Peter Welch, Cathy 
McMorris Rodgers, and I on the House side, and Senators Gardner 
and Shaheen on the Senate, we recognized this impact when we 
introduced the Outdoor Rec Act. Incorporating data on such a 
sizeable share of the economy will ensure that we adopt 
policies which will help foster growth and prosperity. You 
know, without this data we are left to wonder about say the 
Appalachian Trail's contributions to the GDP.
    So back to the napkin math. A good pack goes for at least 
$200, a good sleeping bag another $200, an inexpensive one-
person tent $75, durable hiking shoes around $120--although 
mine was much higher--a good headlamp $27, pack liner 45, Swiss 
Army knife $16, trekking pole $70. We will let Jeremy talk 
about how much a good snowboard costs. None of this will even 
account for clothing, food, basic first aid, cooking supplies, 
a sleeping pad, or all the technical weather gear.
    Over 2,200 miles, a through hiker on the Appalachian Trail 
will eat at countless small-town diners, delis, coffee shops, 
Pizza Huts, even rent the occasional room for a night off the 
trail. And you multiply that times 2,700 successful through 
hikers a year and you are talking about literally billions of 
dollars. And though the trail itself is very long, this is just 
to look at one small portion of our outdoor economy.
    Mr. Chairman and Ranking Member, I believe in the 
importance of data and measurements. As a businessman you can't 
manage what you don't measure, and Werner Heisenberg pointed 
out that anything that we measure we change. So these numbers 
if we quantify them, it enables us to enact responsible public 
policy to grow our economy, create jobs, and foster 
appreciation and enjoyment of our great outdoors. So this is 
what the Outdoor Rec Act accomplishes by getting the Bureau of 
Economic Analysis at the Department of Commerce to quantify the 
value of the outdoor recreation economy.
    So from the green vistas of the Shenandoah National Park, 
the boulder fields up on Mount Washington and the ankle-
breaking routes on the Hundred-Mile Wilderness in Maine, which 
I traversed last summer, this Nation has been blessed with 
majestic national bounty. But our public lands are much more 
than beautiful parks. They are also a source of health both 
physical and financial and they are an economic engine that 
must continue to grow.
    So again, thanks for allowing me to testify on the 
importance of outdoor recreation. I have raised four kids and 
now two grandkids on the simple ethic that no child should be 
left inside. And I know you have a wonderful panel of witnesses 
who can reinforce why it is so important for us to pay 
attention to this enormous economic sector. Mr. Chairman and 
Ranking Member, thank you.
    [The prepared statement of Mr. Beyer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, I want to thank the gentleman for his 
testimony today. And as you rattled off all the different 
things and the costs, I will need you to probably talk to my 
wife to explain what our credit card bill looks like sometimes 
when I am out buying and why I need it. But I want to thank you 
again for your testimony and for your love of the outdoors. So 
thanks for being with us today.
    At this time, that will conclude our first panel, and at 
this time I would like to ask for our second panel to come up 
to be seated and we will just take a quick recess as they get 
their seats.
    [Recess.]
    Mr. Latta. Well, thanks very much and welcome back. Thank 
you again for your patience and for all of the time for you 
being with us today. We now move into our second panel for 
today's hearing. Each witness will be given 5 minutes for an 
opening statement followed by a round of questions from our 
Members.
    For our second panel we have the following witnesses: Ms. 
Amy Roberts, executive director of the Outdoor Industry 
Association; Ms. Ginger Mihalik, executive director of the 
Baltimore Chesapeake Bay Outward Bound School at Outward Bound; 
Mr. Jeffrey Tooze, the vice president of Global Customs & Trade 
at Columbia Sportswear; Mr. Marc--I hope I pronounce your last 
name correctly, is it ``Bur-hay-kay''?--Berejka, director of 
Government and Community Affairs at REI; Mr. Jeremy Jones, 
founder and president at Protect Our Winters; and Mr. James 
Landers, vice president of Government Affairs at the Recreation 
Vehicle Industry Association. Again we appreciate you all being 
here today.
    And we will begin our panel with Ms. Roberts and you are 
now recognized for 5 minutes for your opening statements. And 
you will see a yellow light comes on, that is the 30-second 
light, and the red is at the 5-minute mark. But thanks again 
for being with us today.

STATEMENTS OF AMY ROBERTS, EXECUTIVE DIRECTOR, OUTDOOR INDUSTRY 
  ASSOCIATION; GINGER MIHALIK, EXECUTIVE DIRECTOR, BALTIMORE 
  CHESAPEAKE BAY OUTWARD BOUND SCHOOL, OUTWARD BOUND; JEFFREY 
    TOOZE, VICE PRESIDENT, GLOBAL CUSTOMS & TRADE, COLUMBIA 
  SPORTSWEAR COMPANY; MARC BEREJKA, DIRECTOR OF GOVERNMENT & 
COMMUNITY AFFAIRS, RECREATIONAL EQUIPMENT, INC.; JEREMY JONES, 
FOUNDER AND PRESIDENT, PROTECT OUR WINTERS; AND JAMES LANDERS, 
   VICE PRESIDENT OF GOVERNMENT AFFAIRS, RECREATION VEHICLE 
                      INDUSTRY ASSOCIATION

                    STATEMENT OF AMY ROBERTS

    Ms. Roberts. Thank you, Mr. Chairman and members of the 
committee, for calling this hearing today and highlighting the 
important role of the outdoor recreation industry and America's 
great outdoors on the United States economy. Outdoor Industry 
Association is the national trade association for suppliers, 
manufacturers, and retailers and we have more than 1,200 
members nationwide.
    Many Members of Congress are familiar with our 2012 Outdoor 
Recreation Economy Report and those numbers have become the 
gold standard for measuring outdoor recreation's impact on the 
U.S. economy. Our new economic report released just 2 days ago 
shows a very strong and growing sector that is critical to 
America's economic well- being and the livelihood of Americans. 
Our 2017 report shows that outdoor recreation contributes $887 
billion in consumer spending annually. This means that 
Americans spend more on outdoor recreation than on 
pharmaceuticals and gas and fuels combined.
    7.6 million American jobs depend on outdoor recreation. 
More American workers are employed by outdoor recreation than 
by computer technology, construction, finance, or insurance. As 
a multidimensional economic sector, outdoor recreation fuels 
employment in other sectors such as manufacturing, finance, 
retail, transportation, food service, tourism and travel.
    Demand for advanced outdoor technical apparel, footwear, 
and equipment drives innovation and entrepreneurism. It creates 
jobs for highly skilled workers in diverse fields. The outdoor 
industry also contributes a combined 125 billion every year in 
taxes, 60 billion in local and State and 65 billion in Federal 
tax dollars. Unfortunately, outdoor recreation assets reap very 
little of that through reinvestment back into our shared public 
lands and waters, the infrastructure needed for the outdoor 
recreation economy.
    Businesses in our industry are no different from businesses 
in other sectors. They rely on certainty that they can have 
access to adequate infrastructure to plan their investments and 
grow jobs. The outdoor activities that the outdoor industry 
represents are as diverse as the companies who make up our 
industry. From hiking, hunting, fishing, skiing, biking, 
surfing, paddling, ATV and off-roading to snowmobiling, 
camping, boating, climbing, and horseback riding, there is an 
outdoor activity for everyone.
    The growth in our sector makes sense and our annual Outdoor 
Foundation Participation Report shows that outdoor recreation 
participation grew, adding 1.6 million participants from 2015 
to 2016. The report also shows that half of all Americans 
participated in at least one outdoor recreational activity in 
2016. So that equates to 144 million participants who went on a 
total of 11 billion outdoor outings and that is a lot of hiking 
boots and water bottles.
    Our public lands and waters belong to every American and 
they are the foundation of our outdoor recreation economy. 
Preserving access is imperative to enhancing the industry's 
economic and social impact and ensuring that every American's 
ability to get outside whether close to home or on a weekend 
adventure.
    In order to ensure the growth and success of the outdoor 
recreation economy, policymakers must protect America's public 
lands and waters. These assets are foundational to our sector. 
We ask you to invest in local and Federal recreation 
infrastructure and programs to ensure all Americans have access 
to public lands and waters, and to promote outdoor recreation 
as part of a public health policy and national economic 
discussions.
    Your committee has been integral in the Outdoor Recreation 
Jobs and Economic Impact Act, which passed last year with 
bipartisan support by unanimous vote, and I think that is 
something to note that this is a very bipartisan industry. We 
hope that this official Government data will shed light on 
business and land management policies that can help us continue 
our trend of growth and success.
    I want to thank the committee on behalf of the outdoor 
industry, as the bipartisan REC Act is the first step to 
elevating awareness about the impact of the outdoor recreation 
economy. It underscores the imperative for leaders and 
lawmakers to protect and invest in policies that grow their 
infrastructure on which outdoor recreation economy is built. 
Thank you for your time and attention to our growing industry.
    [The prepared statement of Ms. Roberts follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much, and Ms. Mihalik, you are 
recognized for 5 minutes.

                  STATEMENT OF GINGER MIHALIK

    Ms. Mihalik. Thank you, Chairman Latta and Ranking Member 
Schakowsky, for holding this hearing today, and good morning to 
all of the members of the committee. It is an honor to be 
before you today. My name is Ginger Mihalik and I am proud to 
represent Outward Bound USA at this hearing.
    For over 75 years, Outward Bound has educated thousands of 
students in outdoor classrooms across the United States. I am 
proud to serve as the executive director of the Baltimore 
Chesapeake Bay Outward Bound School which is but one of 11 
schools. We use the wilderness to provide unparalleled 
opportunities for discovery, personal growth, self-reliance, 
teamwork, and compassion. This, paired with our proven 
curriculum, produces remarkable documented results, strength of 
character, ability to lead, and a desire to serve.
    Outward Bound schools in Colorado, California, Maine, 
Maryland, Massachusetts, Minnesota, Nebraska, New York, North 
Carolina, Oregon, and Pennsylvania use the power of these 
amazing places to serve over 40,000 students a year. The 
programs in each of these schools all teach students to be 
compassionate, resilient leaders that are equipped with the 
skills needed to improve themselves and our world.
    Outward Bound schools design programs to respond to the 
needs of their specific community and the needs of the times. 
For example, locally, my school responded to violence between 
police and youth. Nationally, Outward Bound has designed a 
program specifically to address the needs of veterans returning 
home.
    For many veterans, returning home can be as stressful as 
shipping out. Although they are safely removed from the dangers 
of war, they are also removed from the routine, the sense of 
purpose, and the camaraderie that their years of service 
provided. Experience in conflict zones can cause veterans to 
lose touch with their skills, to lose confidence in themselves, 
and to disengage from the families and communities that welcome 
them home.
    Our weeklong Outward Bound Veterans expeditions provide a 
unique setting with physical and mental challenges which create 
a sense of purpose and accomplishment while building trust in 
other members of the expedition. In 2016, we were able to take 
553 veterans on 47 wilderness expeditions which included 
everything from rafting in Oregon to backpacking and rock 
climbing on the Appalachian Trail to dog sledding in Minnesota.
    Over the course of each trip, veterans work in a group to 
overcome shared obstacles and achieve shared goals in a non-
combat setting which helps to build the skills and connections 
needed to transition back to life at home. Results of a recent 
study at the University of Texas showed that our veterans 
program helps to increase overall mental health, interpersonal 
relations, resilience, sense of purpose, and greater interest 
in personal growth. Many returning veterans are reticent to 
seek help through traditional mental health avenues and Outward 
Bound Veterans has proven to be an effective therapeutic 
alternative.
    We at Outward Bound share a belief with this subcommittee. 
Outdoor recreation provides a space for self-discovery. I have 
witnessed truly remarkable transformations happen among our 
students in the outdoors. I have watched an inner city youth 
view the horizon for the first time. I have watched grown men 
cry at the beauty of a wilderness sunrise. And I have witnessed 
a veteran who had lost his legs in war find himself and his 
ability to lead again at the stern of a canoe on the Potomac 
River.
    As a double amputee he lost his confidence in what he was 
able to do and believed that he could never complete an 
expedition. Once in his canoe he soared. He was the strongest 
paddler, he quickly found his rhythm in the boat, he had the 
support of his crew on land, and he ultimately found the 
confidence he had lost. These experiences are powerful and are 
impossible to recreate in any other place than the outdoors.
    Thank you again, Chairman Latta and Ranking Member 
Schakowsky, for the invitation to be here today. I look forward 
to answering any questions.
    [The prepared statement of Ms. Mihalik follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much. And again thanks for being 
with us today. And Mr. Tooze, you are recognized for 5 minutes 
for your opening statement.

                   STATEMENT OF JEFFREY TOOZE

    Mr. Tooze. Chairman Latta, Ranking Member Schakowsky, and 
members of the subcommittee, thank you for this opportunity to 
testify on matters of importance to the 142 million Americans 
who recreate outdoors each year and the compelling numbers that 
you have already shared with us and Amy shared as well from the 
updated Outdoor Recreation Economy Report released just a 
couple days ago.
    I am proud to be here today on behalf of Columbia 
Sportswear Company, based in the beautiful Pacific Northwest 
and in the great State of Oregon. I currently serve as vice 
president of Global Customs and Trade and have been with the 
company for over 16 years.
    Columbia Sportswear Company is a true American business 
success story that parallels the evolution of outdoor 
recreation as a vital and integral part of American culture and 
America's economy. What began in 1938 as a small company 
purchased by a family that had just immigrated from Nazi 
Germany, it has grown to become a global leader in the outdoor 
recreation industry with $2.4 billion in annual sales and 
supporting over 4,200 jobs across 38 States and an additional 
2,300 jobs across the globe. In 2016, the company ranked number 
882 on the Fortune 1000, and next year the company will 
celebrate its 20th anniversary as a publicly traded company.
    While most people are very familiar with our Columbia 
Sportswear flagship brand, many are less aware that the 
company's brand portfolio also includes Mountain Hardwear, 
SOREL, and prAna. Each of our brands targets specific consumer 
segments within the outdoor recreation industry. Columbia 
Sportswear Company's rich heritage features storylines of 
immigration, entrepreneurship, innovation, and perseverance.
    Today, the company's four brands and respective 4,200 hard-
working American employees pursue a single, unified mission: We 
connect active people with their passions. We do that by 
designing innovative performance apparel, footwear, and 
accessories that enable people to enjoy the endless variety of 
healthy outdoor recreational activities available across this 
great Nation and in any climate, any weather, and any day of 
the year.
    We also support the efforts of more than 400 nonprofits 
around the country that are working to improve access to 
outdoor spaces and preserve the natural beauty of our parks, 
trails, and wetlands, so that they will be there for the next 
generations to enjoy. We pride ourselves on designing products 
that deliver real performance benefits and at accessible prices 
that put them within reach of consumers at all income levels.
    However, unlike many of the other 90 countries where our 
products are sold, the United States assesses among the highest 
import tariffs on our categories of products making them more 
expensive for U.S. consumers than they would otherwise need to 
be, and also stifling innovation of new, highly technical and 
high performance products and hampering our ability to keep our 
prices within the reach of the broadest consumer base possible. 
In fact, U.S. duty rates on our products typically range from 
7.1 percent to as high as 67\1/2\ percent with an overall 
industry average of approximately 15 percent.
    These duties in the U.S. date back to the 1930s and are no 
longer relevant as means to protect manufacturing jobs that 
migrated to other countries more than 30 years ago. Yet to this 
day, the apparel and footwear industry and especially the 
outdoor industry pays a disproportionate share of the U.S. 
duties. For example, the amount of duties paid by Columbia 
Sportswear Company in 2016 ranked it 49th out of 375,000 U.S. 
importers. We would much rather rank 49 on the Fortune 1000.
    We and all of the thousands of companies in the outdoor 
recreation industry are trying to expand the market of our 
products and promote increased outdoor recreation. But we are 
hindered by these high tariffs and in our ability to invest in 
more family-wage U.S. jobs such as product innovation, design, 
development, supply chain operations, digital commerce, 
marketing, finance, legal, human resources, and several other 
critical functions of our companies.
    We encourage Congress to reevaluate and modernize the 
outdated and antiquated duty structure in order to bring 
current with today's global market realities and to help ease 
the unnecessary cost burden that is being borne by the outdoor 
recreation industry and American consumers. We are proud to be 
a leader in the outdoor recreation industry, an industry that 
embraces values that are foundational to America's heritage, 
its culture, and to ensuring a thriving future for all 
Americans.
    I thank you for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Tooze follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony. 
And Mr. Berejka, you are recognized for 5 minutes for your 
opening statement.

                   STATEMENT OF MARC BEREJKA

    Mr. Berejka. Thank you. Chairman Latta, Ranking Member 
Schakowsky, members of the subcommittee, again thanks for the 
chance to testify on behalf of REI Co-op. I am proud to appear 
alongside my recreation industry colleagues and share the great 
news about our sector's economic impact.
    REI was founded almost 80 years ago as a co-op in Seattle 
when 23 climbers came together to get good deals on climbing 
axes from Europe and other great gear. Today, REI has 145 
stores in 36 States, plus over 16 million co-op members across 
the country. We buy gear and apparel from over 1,000 firms 
distributed across the United States and we get thousands more 
Americans into the outdoors with classes, outings, adventure 
travel trips.
    If there are two thoughts I want to leave with you today 
they are these: First, the more we understand about the outdoor 
sector, the more we can create jobs and opportunity. Second, 
the outdoors significantly enhances all Americans' quality of 
live and contributes to a stronger America overall.
    As a jumping off point on behalf of the co-op's members, 
let me profoundly thank the committee for passing the Outdoor 
Rec Act last year. It will ensure that the United States 
measures our sector's contributions with more authority and 
more detail. This law, this new law, is foundational to our 
path forward.
    My industry colleagues have spoken to the latest economic 
assessment. I won't repeat those details. But let me say that 
in my experience, whenever we share this data, policymakers are 
hungry to learn how we can use the data for economic 
development. The outdoor sector has so many positive economic 
attributes. We are made up of thousands of main street and 
entrepreneurial businesses. We have prominent brands like REI, 
but the reality is our jobs are spread across businesses large 
and small. In rural towns it is often the case that recreation 
is the economic lifeblood.
    We are also an innovative sector, and in this country we 
consider ourselves the hotbed of innovation and outdoor 
products across the globe. Back in Seattle, REI employs 
designers, specialists in materials science, specialists in 
advanced manufacturing. We also buy dozens of hot innovative 
products from those who are working on outdoor electronics, 
high-tech apparel, advanced camping gear.
    We also run a sustainable business. In REI's own operations 
we work to minimize our environmental impact. Since the year 
2008, we have grown revenue by 78 percent; over that entire 
period our energy consumption has gone up by less than 5 
percent. We are also now 100 percent powered by renewable 
energy. We invest in nonprofits, volunteerism, consumer 
education to protect the public lands because healthy public 
lands are the infrastructure that our sector relies on.
    Policymakers want to learn how to create these innovative, 
main street, entrepreneurial businesses. For instance, I know 
of economic development activities bubbling away in Arkansas, 
Oregon, Washington, and Utah; with data generated by the Rec 
Act we should be able to develop our economy, our rec economy, 
even faster, so again thank you for your work on the 
legislation.
    We also need to recognize the enormous spillover benefits 
of outdoor recreation. In some ways, you can think of our 
sector as adjacent to health care, but at the front end. An 
increasing body of science shows that time outdoors, whether it 
is exercising or just rejuvenating, it is good for you. It is 
low-cost preventive medicine. In some exciting research that 
REI has backed at Cal Berkeley, people are finding that time 
outdoors can mitigate PTSD symptoms in returning vets.
    Our sector also fosters positive community development. We 
know that towns with great outdoor opportunities attract 
businesses, not just outdoor businesses but businesses of all 
types. We know that access to safe green spaces in cities makes 
neighborhoods more cohesive, strengthens the social fabric. We 
know that when more people walk and bike to jobs or to transit 
our transportation networks are more sustainable.
    Lastly, the outdoors, we should be proud, is also part of 
healthy childhood development. There is an increasing body of 
research that shows that kids open their minds in unique ways 
when they have outdoor opportunities. All of these attributes 
in the long run contribute to a healthier economy, healthier 
people, healthier communities, and a stronger United States of 
America.
    We have limited time here today, but REI looks forward to 
working with the committee. We are fond of saying that united, 
outside we are united. We look forward to working on these 
issues in that united spirit.
    [The prepared statement of Mr. Berejka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony today. 
And at this time the Chair recognizes Mr. Jones for 5 minutes 
for your opening statement. Thank you for being here.

                   STATEMENT OF JEREMY JONES

    Mr. Jones. Good morning, Chairman Latta, Ranking Member 
Schakowsky, and members of the Subcommittee on Digital Commerce 
and Consumer Protection. My name is Jeremy Jones. I am a 
professional snowboarder and founder of Protect Our Winters, a 
nonprofit based in Colorado with over 150,000 members 
nationwide, and the founder of Jones Snowboards, a snowboard 
company with $8 million in annual sales.
    Ten years ago, I founded Protect Our Winters because I have 
spent my life in the mountains and I have witnessed the impacts 
of climate change on our winters firsthand. Our mission is to 
engage and mobilize the snow sports industry to lead the fight 
against climate change.
    The snow sports community deeply understands the threat 
that climate change poses on its future. Snowpack is now 
confined to the highest elevations and what should be falling 
as snow is in fact falling as rain. Our seasons are noticeably 
shorter. We understand that if we don't act to reduce 
greenhouse gas emissions we will see the end of winter as we 
know it. We are pleased that the Rec Act passed last year with 
unanimous bipartisan support, thank you.
    Today I will speak to the importance of environmental 
protection to ensure a prosperous future for the outdoor 
recreation economy. As the climate continues to warm our 
winters, the snow sports industry is increasingly vulnerable. 
According to the Outdoor Industry Association's 2017 Outdoor 
Rec Economy Report, nationwide the snow sports industry 
generates 72 billion annually and supports 695,000 jobs. That 
means the snow sports industry is responsible for almost 70,000 
more American jobs than our country's extractive industries.
    Across the United States, average winter temperatures have 
warmed almost two degrees Fahrenheit since 1895 and that rate 
of warming has more than tripled since 1970. In the Sierra 
where I live, the snowpack is projected to decrease up to 70 
percent by 2050. Ski resorts have lost over $1 billion in 
revenue and up to 27,000 jobs in low snowfall years the last 
decade. In recent seasons, 50 percent of resorts are both 
opening late and closing early. By 2010, 88 percent of resorts 
report utilizing snowmaking to supplement natural snow cover to 
stay in business which adds an additional 500,000 expense to 
their annual operations.
    Unfortunately, climate change will decimate far more than 
the snow sports industry. Our snowpack will not be sufficient 
to keep stream temperatures low and warmer rivers will diminish 
fish habitat, making fishing difficult. In Montana, it is now 
prohibited to fly fish after 2:00 p.m. in the summer as the 
waters are too warm. This rule has devastated the fishing and 
guiding industry. Our rivers will have less water, reducing 
stream flow and making waters harder to navigate for kayaks and 
canoes.
    These changes are already impacting rural economies 
nationwide and these are communities in places that you 
represent. From the Oregon Cascades to the headwaters of the 
Cheat River, from the Sangre de Cristo Range to the shores of 
Lake Michigan, they rely on outdoor tourism for economic 
security.
    I travel the world for my career. The climate change knows 
no borders; it is the same story everywhere. Early on, my 
career took me to Chamonix to ride the Vallee Blanche, a 
popular glacier run in France. In 1920, they built the train to 
take you back to town from the bottom of the glacier. As the 
glacier receded, they put in a chair lift to take you from the 
end of the glacier to the train.
    When I first visited in 1990, it was a 20-minute hike from 
the end of the glacier to the chair lift. Today, it takes an 
hour to go from the end of the glacier to the chair lift to the 
train which takes you back to town. We know glaciers are 
receding, but this is occurring at an alarming rate. In the 
winter of 2010, I hiked up the grassy slopes of an old ski area 
in British Columbia with a friend. When I asked him why the 
resort wasn't open, he said, it just doesn't snow here anymore. 
He is 30 years old. He has seen winter diminish in his 
lifetime.
    Now I call Truckee, California home. As the owner of a 
snowboard company, I run many small businesses that depend on a 
stable climate and snowy winters. With every inconsistent 
winter our community's economy suffers. Thanksgiving 
traditionally marked the start of winter. Tourists are now 
hesitant to make Christmas plans. This shortens our tourism 
season and the community from local outfitters to restaurants 
on Main Street to the resort employees pays the price. Snow is 
our currency.
    Snowboarding has led me to a life outdoors. Just like 
farmers and fishermen I have observed these changes daily for 
the past 30 years. I am now a father. I constantly think about 
a world my son and daughter will grow up in. Climate change is 
changing places we play right now. In the future, what will 
these places look like for my kids? Will they experience a 
lifetime of snowy winters? I am deeply concerned about the 
future of outdoor recreation.
    In this hearing's announcement, Chairman, you said you look 
forward to hearing how Congress can support the outdoor 
recreation economy's growth and viability. I respectfully 
request that you act on climate and mitigate greenhouse gas 
emissions to ensure the future and prosperity of outdoor 
recreation.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Mr. Jones, thank you very much for your 
testimony. And Mr. Landers, you are now recognized for 5 
minutes for your opening statement.

                   STATEMENT OF JAMES LANDERS

    Mr. Landers. Thank you. Batting cleanup today, yes, J. 
Landers. I am with the Recreation Vehicle Industry Association. 
That is the national trade association representing all 
recreation vehicles, from the big motor homes all the way down 
through the whole trailer system including the little pop-ups 
and the sliding campers that go in the back of a pickup truck.
    So about a year and a half ago we did our first economic 
impact study and what we found we were really surprised. We, 
the RV industry, generates about $50 billion for the U.S. 
economy. In that process, we also discovered that we support 
about 290,000 jobs, and honestly, we are creating jobs faster 
than we can fill them. All right, think about that. Let me take 
you back a few years before that.
    So during the Great Recession our industry got crushed. It 
is a disposable income product, so the unemployment rate in 
Elkhart, northern Indiana, was about 20 percent. I am happy to 
report that right now we are at about 3.1 percent which is 
virtual full employment. So as an example one of my biggest 
manufacturers, Thor Industries, they are expanding their 
capacity at four of their plants; more than that, now they are 
adding six new factories. Each factory is probably a hundred to 
200 full-time, well-paying jobs. That is in northern Indiana, 
Idaho, Oregon, so various States around the country. And I can 
tell you they are not alone. There are plenty of other RV 
manufacturers and suppliers that are expanding.
    So what is really fueling this growth? Several things. 
Retail and wholesale credit still readily available; interest 
rates are still very reasonable; consumer sentiment is solid; 
gas prices steady--that is nice. U.S. citizens have chosen now 
to stay home. They are not going abroad as much as they used to 
be, so staying home and visiting the iconic lands of our 
country, that is where we love to see that.
    And the last part is the demand is from Baby Boomers. We 
know there are about 10,000 Baby Boomers retiring every day. 
And the other side of that is the Millennials. Who knew, right? 
The Millennials are looking at the convenience, the comfort, 
all of the amenities in these new RVs, whether it be a motor 
home or a trailer, and they are all about mobility and that is 
what we offer.
    But we really do have some significant challenges. Our 
research shows that 89 percent of people buy an RV to go 
camping at some point. So of the 431,000 units that we put into 
the stream of commerce last year, that means about 383,000 want 
to go camping at some point and that is part of the problem. I 
can tell you now that the RV associated overnight stays in the 
national park system is declining.
    In the early and mid- 80s, there were about 4.5 million RV 
related stays at the national campgrounds. We are down to about 
two million now, so it has been cut more than half. Why? The 
biggest reason, we have all heard about this in the news, 
infrastructure, right. The Federal land agencies haven't 
invested in their assets. Campgrounds are in terrible shape, 
many of them. Marinas need work, the supply stores, the 
bathhouses, the bathing facilities, they all need attention. 
What we are really looking at is an Eisenhower-era campground 
system trying to provide needs for the 21st century recreation 
vehicle, and it is failing. It is just not working.
    And as crazy as this sounds, the other big want that we 
have come to recognize is both Baby Boomers and Millennials 
want WiFi and broadband. I mean, even in the national parks, 
you spend the day out hiking and camping and walking, 
snowmobiling, you come back you want to connect, and especially 
the young Millennials. The other part of this is that the State 
campground system and the private campground system have 
invested in their facilities and so people are choosing to go 
to the State parks instead of the national parks and they are 
going to the private campgrounds because they can get the 
amenities.
    So what are we going to do about this? Well, the recreation 
vehicle industry along with several other, about 13 to 18 other 
outdoor recreation trade associations formed a new trade group, 
a new coalition called the Outdoor Recreation Industry 
Roundtable, and this is the business side. Anything to do with 
outdoor recreation, it is in this coalition. And what do we 
want to do? Our charter is really to become a resource and a 
partner with the Federal agencies that deal with outdoor 
recreation.
    We want to work with the agencies and Congress on three 
basic things: ensure reasonable access to all public lands; we 
want to establish a system of public-private partnerships, and 
specifically for us of course we are interested in modernizing 
and expanding the campgrounds; and we also want to encourage 
the departments to encourage a culture of yes, first, instead 
of well, maybe that is not really in my job description.
    So to wrap up, the RV business is looking good. It is 
strong. All the indications look like 2017 is going to be even 
a better year, and we look forward to working with our fellow 
Outdoor Recreation Industry Roundtable partners to work with 
Federal agencies making sure that all outdoor recreation 
experiences are met and in fact exceeded. Thank you for your 
time.
    [The prepared statement of Mr. Landers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony. I thank 
all of our witnesses for testifying before the subcommittee 
today, and I will recognize myself to begin the questions. And 
if I may, Ms. Roberts, I would like to start with a question to 
you.
    First of all, interested in your testimony and all of the 
statistics that you quoted, especially how things have, really, 
the exponential number of changes like from 2012 for the 
industry of $646 billion and then that changing to, in just 5 
years' time, to $887 billion, and also the $125 billion in 
taxes, and just on what we are looking at the industry has 
generated out there.
    So I guess when you look at all this information, how does 
this information that we gather from the Outdoor Rec Act, how 
is that going to affect the industry as it moves forward and 
what do you think the role should be that we as policymakers 
should have then?
    Ms. Roberts. Thank you for the question, Chairman Latta. 
The growth in the number between the 2012 report and the 2017 
report really shows the growth in our industry over time. The 
other thing that occurred is that this report has really become 
the gold standard for how outdoor recreation is viewed and so 
we are always approached to add new activity categories, which 
we did in the report.
     So, and then the other interesting bit of information is 
just that the sample size for this report was actually quite a 
lot bigger, 70 percent larger than in our 2012 report. And so 
looking ahead that is actually going to allow us to release 
data in the next 6 months that shows the economic impact, jobs 
created, taxes paid at the congressional district level, which 
I think will be very informative as local communities and as 
this body and Members of Congress think about how do you 
develop an outdoor recreation economy in your local community.
    And for us that really means investing in outdoor 
recreation infrastructure, investing in public lands, ensuring 
that the facilities are there when Americans get outside to 
recreate that they have places to go. And I think that is both 
places to go near their homes so that outdoor recreation is a 
part of everyone's lives. Our goal is really to have an outdoor 
recreation opportunity within 10 minutes of everyone's homes as 
well as that people can aspire for the bigger adventures on the 
weekends.
    So we really are looking for both local policymakers, State 
policymakers, and then the Federal Government to see our 
economy as a growth sector as uniquely American. These jobs are 
not easily outsourced. We are going to take advantage of our 
amazing natural resources that are here in the U.S. and as a 
way to drive opportunity for rural communities but also urban 
areas.
    Mr. Latta. Thank you.
    Ms. Mihalik, if I could ask a couple of questions for you. 
Could you explain the program model that you use for Outward 
Bound to help our veterans and service members as they come 
back to their respective communities? And, really, I want to 
thank you for all that you are doing for our veterans out 
there. Thank you.
    Ms. Mihalik. Oh, you are welcome. Thank you for the 
question. So Outward Bound has a curriculum that has been 
developed since 1941 when Outward Bound was founded in Wales, 
came to the United States in Colorado in '67, and we have used 
the same model that entire time. It has evolved a little bit 
over time, but essentially you are taking a group of people, 
and it could be veterans, it could be youth, it could be any 
adult, out into a wilderness setting and there is an 
intentional progression that the crew goes through in order to 
learn new skills.
    With veterans it can be a little more unique. Our 
instructors receive a lot of additional training on how to deal 
with the issues that they are working through, but you take 
them through three phases of a course. There is training, main, 
final, where you are trying to teach them the skills that they 
are going to need out in real life but in a wilderness setting. 
Things like communication, how do you support each other; how 
do you ask for what you need? The veterans find as they are on 
these courses together they get to practice those skills in a 
setting that is familiar to them. It is much like being in a 
war setting. They are in the trenches with their crew, they get 
to work through those skills, and then they learn how to 
transfer them back to their day to day life.
    Mr. Latta. Thank you.
    Ms. Mihalik. Sure.
    Mr. Latta. And if I could turn to you, Mr. Berejka. In your 
testimony you mentioned that the outdoor recreation is an 
innovative sector. Can you highlight some of the innovations 
that come from this space and speak to the advancements in 
technologies that are being used to enhance outdoor recreation 
gear and apparel?
    Mr. Berejka. Sure. In fact, my buddy Jeff, here, probably 
has an example on the chair. They have invented a water 
repellent jacket that uses recycled materials and that imposes 
limited harm on the environment. One of the things we are very 
conscientious of as we produce these products is not just how 
we assemble them but what their end of life is. And so REI 
awarded Columbia our first ever Root Award for inventing the 
most sustainable, water repellent jacket we have ever seen. 
That is just one example.
    Mr. Latta. Well, thank you very much. And my time has 
expired and at this time I will recognize the gentlelady from 
Illinois, the ranking member of the subcommittee, for 5 
minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to take 
this opportunity, today is Take Your Daughters to Work Day, and 
I just wanted to introduce my adopted daughter for the day, 
Elena Tate. Stand up for 1 second, OK, Girls Inc., behind me, 
and also acknowledge Lizzy Carroll, who is here. Lizzy. Jeff 
Carroll, our chief of staff for the Democrats, his daughter. 
Thank you, Lizzy. Thank you, kids.
    I also wanted to apologize, although he is not here, to Mr. 
Bucshon, who I called Mr. Mullin earlier, my colleague in 
Indiana, next to where I have a home and next to my district.
    So let me talk a little bit about the environment--and I 
appreciate the emphasis on environment that we heard from 
everyone--from the standpoint very much of economics in our 
country which I think sometimes we don't think about. I was 
really interested in the statistics. Ms. Roberts and Mr. Jones 
talked a bit about that, all of you, really, about the 
contribution to our economy that is really dependent on our 
environment, and then concerns about the changing environment.
    And so I want to turn to our witnesses, and I wanted to 
start--Mr.--now I am going to try it. I have ``Bur-ah-ka.''
    Mr. Berejka. Bur-ay-ka.
    Ms. Schakowsky. Bur-ay-ka, OK.
    Mr. Berejka. It is a good Chicago Polish name.
    Ms. Schakowsky. OK. I should know. Schakowsky, I should 
know that, but----
    Mr. Berejka. Polish Lithuanian.
    Ms. Schakowsky. Yes. So how concerned is your company, 
then, about the effect of climate change on the future 
stability and economic growth of the industry and your business 
in particular?
    Mr. Berejka. I think REI Co-op identified climate change as 
a business risk probably 10 to 15 years ago. And so like the 
rest of the panelists, we are concerned that with the changing 
climate comes hotter, longer summers as well as shorter 
winters, and that can affect the economic vitality of the 
industry, for sure.
    Ms. Schakowsky. Mr. Tooze, I wondered if you wanted to talk 
about that at all. I know you were talking about tariffs, and I 
want to talk about the climate.
    Mr. Tooze. Sure. Well, thank you. I appreciate that, 
Ranking Member. I think one way--ours is pretty easy, you know, 
we make products to adapt to all these changes. We produce in 
over 90 countries around the world and a multitude of climates, 
and we rely on the associations and whatnot to help address the 
things in a more macro level and then we make sure we protect 
our consumers.
    We kind of have this--we keep our consumers warm, dry, 
cool, and protected, and then I think, you know, but we also 
have to align our values with our consumers. Marc was just 
talking about this jacket here which we have won lots of awards 
on, and it is actually waterproof-breathable, not just water 
resistant.
    Ms. Schakowsky. Does it come in any other colors? Just 
asking, never mind.
    Mr. Tooze. It is actually made from 21 water bottles. It 
saved 13, one jacket saves 13 gallons of water because there is 
no dye using the process. It is PFC-free and it is still 
waterproof- breathable, very protective, and I think it is just 
a good--and it is recyclable. So it is a good showcase of what 
we try to do as a brand to adapt to that.
    Ms. Schakowsky. Thank you. Many of the business leaders in 
our outdoor recreation industry recognize the threat of climate 
change, and since 2013 more than 1,000 companies have signed 
the climate declaration as a call to action. And Mr. Chairman, 
I would like to request unanimous consent to introduce a copy 
of this declaration for the record, including a list of the 
signatories from the outdoor industry.
    Let me just say one sentence here that I thought I marked. 
There must be a coordinated effort to combat climate change 
with America taking the lead here at home. Leading is what we 
have always done and by working together, regardless of 
politics, we will do it again. And I know the Outdoor Industry 
Association is listed here and I am hopeful that--are all of 
you on this? I don't know. Anybody, oK.
    I am just about out of time, but I did want to say to Mr. 
Jones, so are you concerned by efforts to slash funding for the 
Environmental Protection Agency, the Department of Interior, 
and other Federal agencies with important missions regarding 
outdoor recreation?
    Mr. Jones. It is incredibly disheartening. I feel like, you 
know, the EPA, for example, is a great example of an agency 
formed by a Republican with bipartisan support and to see this 
become a political issue, I think, has been a huge problem. And 
we are really at this 11th hour. We have the solutions and we 
just need to embrace them and we need bipartisan support to do 
that. And at a time when the EPA couldn't be more important, to 
see 15,000 jobs potentially get slashed is really scary.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Latta. Thank you. And, without objection, the 
gentlelady's letter will be accepted for the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. At this time the Chair recognizes the gentleman, 
the vice chairman from Mississippi, for 5 minutes for 
questions. Thank you.
    Mr. Harper. Thank you, Mr. Chairman. Thanks to each of you 
for being here. And this is such an important issue in every 
State, it is very important in my home State of Mississippi. We 
have some great homegrown success stories, companies such as 
Drake, and others like Longleaf and Mossy Oak that have really 
done a great job in this area for consumers. And Ms. Mihalik, I 
want to also thank you for the work with veterans. That is very 
important.
    And for me, personally, as a parent of a child with special 
needs who is 27 and has intellectual disabilities, has Fragile 
X syndrome, this is an important area too for us. And so we 
look at ways and encourage you as we look at things how we make 
sure that they are included in your calculations on doing these 
things.
    So at this time, Ms. Roberts, can I ask you a couple of 
questions if I may, what role do you believe that we play as 
policymakers to ensure continued growth and success of outdoor 
recreation?
    Ms. Roberts. Thank you for the question, Mr. Vice Chairman. 
You know, I do really think it is, you know, a few things. One 
is ensuring that we keep our public lands public and so that 
they are accessible by all Americans and Americans have the 
opportunity to go out and enjoy our natural resources. I think 
it is funding, providing adequate funding for the land 
management agencies, so we do support full funding of the Land 
and Water Conservation Fund. And then adequate funding so that 
our lands are properly managed and that when Americans go out 
and they enjoy, whether it is to a national park, the BLM 
lands, Forest Service lands, they have an opportunity to have a 
great experience.
    To Jeff's comments specific to really the business side, it 
really is looking at some of the outdated tariff codes and 
ensuring that our products are properly classified and that we 
do look at reducing tariffs on products that are no longer made 
in the U.S. so that consumers have the opportunity to access 
our products, our products remain affordable, and I do think 
that would help drive the innovation that Columbia Sportswear, 
REI, other companies are doing in terms of product innovation 
that is both on the sustainability side, some of the areas that 
Jeff talked about, as well as innovation around just our own 
operations. So those are some of the things that I feel 
Congress can do.
    Mr. Harper. Great, thank you very much. And Mr. Landers, I 
agree that having enjoyed traveling with friends on occasion in 
a motor coach or a motor home, it is great unless you are the 
driver. If you are getting to ride on one it is a great 
experience, great opportunity.
    And the infrastructure issue is an important one that we 
face in this country, so are you seeing development, and I know 
your concern is the outdated infrastructure within our national 
parks and certainly State parks. Are you seeing development on 
the private side that is maybe compensating for that and 
accounting for any of the reduced numbers that you stated?
    Mr. Landers. Yes, absolutely. I mean, when you think about 
a private campground that is an entrepreneur who has started 
that business, they are going to invest in that business to get 
bigger, get better. I would venture to say that almost every 
private campground has WiFi right now and has broadband. So, 
and if you shift to the States, we know that some States are 
investing heavily in their park system because it is a cash 
cow. It can be.
    Mr. Harper. Sure.
     Mr. Landers. So yes, for the States that are doing the 
right thing, the privates are all over this, and unfortunately 
at the national level we need help.
    Mr. Harper. They need help.
    Mr. Landers. They need help. They need attention.
    Mr. Harper. Right.
    Mr. Landers. And really one of the biggest solutions, the 
potential solution is offering public-private partnerships 
where, you know, we can do things together at a faster pace.
    Mr. Harper. Thank you.
    Mr. Berejka, if I could ask you. Did I come close on the 
pronunciation?
    Mr. Berejka. You did. We are honing in on it.
    Mr. Harper. All right, that is close. We are in the right 
ZIP code.
    Mr. Berejka. Yes, absolutely.
    Mr. Harper. In your testimony you touch on the spillover 
benefits of outdoor recreation. Can you explain the benefits 
American consumers and participants will see as well as how 
outdoor recreations help other economic sectors?
    Mr. Berejka. Sure. To elaborate on a couple points in the 
testimony, one, like the folks at Outward Bound we are very 
excited about the health benefits of time outdoors and in 
particular time outdoors as it might address mental health 
needs. The research we are funding in California is looking at 
PTSD sufferers, and PTSD sufferers in particular enjoy enormous 
reductions in stress and anxiety from outdoor experiences.
    I like to think of getting folks like PTSD sufferers access 
to more hiking and biking and fewer pills and treadmills. If 
the American taxpayers spend less on pills for PTSD sufferers 
and more on getting them hiking, we will all be better off.
    Mr. Harper. Thank you very much. I appreciate each of your 
testimony. I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back 
and the Chair now recognizes the gentleman from New Jersey, the 
ranking member of the full committee, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I have a coastal 
district, so the outdoor recreation industry is very important 
to the communities I represent. So my questions are of Ms. 
Roberts. Your organization just released a report that 
highlights the role of beaches and beach-going activities for 
State and local economies. Could you just briefly share some of 
your findings on the economic role of the outdoor recreation 
industry for beach communities?
    Ms. Roberts. Thank you for the question. As I mentioned 
earlier, one of the areas of growth in the report from the 2012 
report to 2017 were really the water-based activities that we 
added. So we added sailing, surfing, other activities like 
that, and I think some of the reasons behind why we decided to 
add those activities has been the growth in those activities, 
the popularity of those activities.
    The broadening, the crossover between some of the water-
based sports in the past, I think one thing you have really 
seen is the growth of stand-up paddle. And so we are starting 
to see more accessibility into those types of water-based 
activities from the beginner to the more advanced surfing and 
that was the decision making behind our process in terms of 
adding those activities.
    And I think the thing there as well is just as these 
communities along the oceans start to transition economies and 
think about, you know, how do you grow your economy in the 21st 
century, we are starting to see more and more communities 
invest in tourism and recreation infrastructure that support 
Americans coming to those areas to recreate.
    Mr. Pallone. Well, thank you. Now in my district we are 
fortunate to have the Gateway National Recreation Area which 
includes Sandy Hook, which is a seven- mile stretch of 
coastline that hosts over two million visitors to its public 
beaches every year. According to the National Park Service, 
Gateway National Recreation Area generated more than $247 
million in economic output in 2016.
    But the problem is the sea level is already rising at Sandy 
Hook and predictions call for as much as six feet of sea level 
rise by the end of the century. Modeling by the Union of 
Concerned Scientists shows that with that much rise most of 
Sandy Hook will flood every day, and that is just one example. 
So Ms. Roberts, what might the economic effects be for the 
outdoor recreation industry from rising sea levels and loss of 
coastline from climate change?
    Ms. Roberts. Thank you. We are concerned about that and we 
do feel that Congress should take action to enact policy 
instruments that combat climate change. At the same time, we 
are working at the State and local level to talk with local 
policymakers, State legislatures about what can be done. So I 
think there is both enacting policy instruments that reduce 
carbon, and I think it is also incentivizing cleaner economies, 
solar, these other fewer carbon emission producing energy 
development. So those are things we are looking at.
    I would say the other thing is that our industry is also 
doing its part in terms of our own operations. So whether or 
not that is producing more sustainable products, it is also 
thinking about our own operations as we transport product, as 
we build distribution centers. So the discussion within the 
outdoor industry is both how do we reduce our own carbon 
footprint, but also how do we advocate for climate policies 
that transition our economy to a cleaner sector?
    Mr. Pallone. Well, thank you. Let me ask you one more 
question. Climate change is not the only threat to our natural 
environment and outdoor recreation. In the first 100 days of 
the Trump presidency we have seen numerous attacks on the 
environment that threaten public health, ecosystems, and the 
outdoor recreation industry. In February, President Trump 
signed the repeal the Stream Protection Rule and this rule had 
protected streams near surface coal mining operations, like 
mountaintop removal mines, from heavy metal contamination. What 
are some popular outdoor recreation activities that make use of 
rivers and streams, and can poor water quality impair those 
activities or make them less popular?
    Ms. Roberts. Thank you. Yes, the activities that we have 
highlighted in our report would include any water-based 
activities, so it could be paddling, canoeing, and then of 
course fly fishing. So those are some of the activities that 
use streams and are dependent on clean waters.
    Mr. Pallone. All right. I mean, the rule that Trump 
repealed would have protected or restored nearly 6,000 miles of 
streams and 52,000 acres of forest over 2 decades, and those 
areas, in my opinion, have immeasurable ecological value and 
huge economic value as well. So thank you. I yield back.
    Mr. Latta. Thank you. The gentleman yields back and the 
Chair now recognizes the gentleman from Indiana for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman. Mr. Landers, in your 
testimony you said that in 2016 the RV industry and we talked 
before, has the best year since the late 1970s. So why do you 
think the industry had such a remarkable comeback and what do 
you kind of attribute that success to?
    Mr. Landers. Thank you, Dr. Bucshon. Well, I elaborated on 
some of the points, the interest rates are low and--but, you 
know, one of the other portions that I didn't mention was the 
fact that we have a 20-year-old advertising program called Go 
RVing. And while it is focused on some television and video, we 
are now all over the social media platforms. And again, this is 
driving not only the Baby Boomers, but we are opening up all 
sorts of markets with the Hispanic market, with the African 
American market and the Millennials and the Gen Xers. So 
honestly, we cannot build recreation vehicles fast enough to 
satisfy the demand.
    Mr. Bucshon. So you think it is probably, really, a big 
cultural shift on most in thought process in the 1970s, I mean 
we had campers, and every weekend we went to the lake. But I 
haven't done that in my own life, I had other things to do, but 
maybe my kids are starting to do that, right? So maybe people 
are recognizing again the benefits of being out there and how 
enjoyable it is.
    Mr. Landers. Right. When you look at the campers from back 
in the '70s and '80s to the ones now, I mean now you are 
pushing a button and virtually both entire walls can expand, so 
some of the campsites that are in the campgrounds are not wide 
enough any longer and some of the vehicles are longer so you 
need the pull-through sites instead of trying to back something 
in there.
    I think that on the whole recreation vehicles now offer all 
of the conveniences that you have in your house. Some of these 
vehicles are extremely expensive, but most of them are really 
very affordable. And what we are finding is that more people 
are deciding to stay home. You know, if you went and you took a 
family of four and you flew somewhere you are paying for the 
airfare and then you are renting a car and then you are eating 
at a restaurant every day and you are staying at hotels and you 
have all that in a recreation vehicle.
    Mr. Bucshon. And leading into that then, are there any 
barriers, you know, governmental barriers or other things that 
you see in the future as it relates to whether it is 
technological advances or other things that you see that 
Washington, DC, can potentially be helpful to you all in your 
industry to further advance and expand your business?
    Mr. Landers. You know, when you ask that because it was 
just last week we ended up having a meeting with NHTSA, because 
my own concern is the autonomous vehicle industry is moving 
along very quickly and I personally feel like we are going to 
be there before you know it and I didn't want the industry to 
get caught behind.
    So invariably we get caught up in automobile, truck, bus, 
housing legislation regulations, but it is time for us to kind 
of get out a little bit further in front of, you know, 
everybody has this image of wouldn't it be fabulous to get in 
an RV and then preprogram it and then go in the back and have a 
sandwich and watch the game?
    Mr. Bucshon. That would be nice.
    Mr. Landers. That would be nice. We are not quite there 
yet, but we are on the way, and we want to work with the 
Congress, with NHTSA, with everybody to make sure we have----
    Mr. Bucshon. Good. And that is appropriate. I am glad you 
said that because this subcommittee has been having some 
hearings on autonomous vehicles and so the inclusion of your 
industry in that overall discussion may be something that comes 
out of this hearing and I appreciate that. So Mr. Chairman, I 
yield back.
    Mr. Latta. Thank you very much. And the Chair now 
recognizes the lady from the Great Lakes State for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman. I have been on a 
camper. We lived in--and my best friend now, whose husband owns 
hockey teams and started--will only travel by recreational 
vehicle, and I am going to tell her I made that point today.
    But Michigan has got over 200,000 snowmobile trail permits 
and expenditures on snowmobiling equipment which totals $235 
million. We have more hunters than any other State, and Lord 
knows I am married to one of them--we don't agree on that one 
issue--and they contribute $304 million to local economies 
while hunting. That is a good thing. We have 3.9 million acres 
of State forest, 150 State forest campgrounds, thousands of 
miles of trails, 7,500 hundred miles of river, and hundreds of 
miles of Great Lakes shoreline. So we obviously agree with all 
of you and care deeply. Certain policies, we are worried about 
what is happening here in Washington though and how we make 
sure that we are not putting the outdoor tourism economy in 
jeopardy.
    Ms. Roberts, in your testimony you state that protecting 
America's public lands and waters are essential to ensuring the 
growth and success of the outdoor recreation economy. Would you 
agree that investing in conservation programs such as the Great 
Lakes Restoration Initiative has a positive impact on jobs?
    Ms. Roberts. Thank you for the question. Yes, we would 
agree with that.
    Mrs. Dingell. So the President's budget proposal looks to 
eliminate $300 million in spending on the GLRI. Would zeroing 
that out budget hurt us both economically and environmentally?
    Ms. Roberts. We are concerned with proposed cuts to the 
Department of Interior and the Department of Ag, the Forest 
Service. Obviously we are interested in the Forest Service 
recreation. We would also encourage Congress to think about how 
we are currently funding wildfires and we think about changing 
that and there are several bills that have bipartisan support 
that would ensure that we don't take away from our recreational 
accounts to fund wildfires. So we do feel that adequate funding 
by Congress is important to helping our economy continue to 
grow.
    Mrs. Dingell. And could be hurt if we didn't.
    Ms. Roberts. Yes.
    Mrs. Dingell. Thank you.
    Mr. Jones, in your testimony you state that climate change 
will decimate not only your industry but other industries as 
snowpacks will not be sufficient to keep stream temperatures 
low. What can Congress do to help mitigate manmade climate 
change, and then I am going to get political and really say 
should we remain in the Paris agreement?
    Mr. Jones. Yes. I mean, I guess to end where you, or start 
where you ended, I mean we need bipartisan support for real 
action on climate. We believe it is a jobs producer, acting on 
climate. To not be in the Paris agreement along with 195 other 
countries would be very bad.
    So in short, I mean, our goal is to have real action from 
our elected officials to act on climate, and it is very hard 
to--I feel like we look really short-term right now, and we are 
behind and we are losing jobs because of it, and this issue is 
not going away. It is astonishing. I talked about this ski area 
in my testimony, in Canada where this guy had basically lost 
his ski area to climate change. It no longer snows, and that 
was 12 years ago. And I thought like, well, I don't have an 
issue in my town on that. We have never not been able to open. 
And we are just coming off of a 4-year drought where we 
virtually couldn't open the bottom of the mountain, so real 
definitive action on climate at a policy level would be huge.
    Mrs. Dingell. Thank you. I only have a few seconds.
    So, Ms. Roberts, I am going to ask you about the Land and 
Water Conservation Fund which was created in the '60s, probably 
by somebody I know and loved, which has provided recreation 
access, secured key, wildlife habitat, and protected the very 
outdoor resources that we are talking about today--hunting, 
fishing, hiking.
    Can you tell me what your companies are saying and how you 
view the connection between that key program and the economic 
contributions your industry makes, please, in 9 seconds?
    Ms. Roberts. Sure. Thank you for the question. We had about 
120 of our industry executives in town over the last couple 
days and advocating on behalf of the Land and Water 
Conservation Fund was a major effort and a major ask in all of 
those meetings.
    Mrs. Dingell. Thank you.
    Mr. Chairman, I still want to tell you, my favorite thing 
when I want to escape from this place, which is more often 
lately, is floating down the river in the inner tube, which 
none of you talked about and I did every single day as a kid. 
And your parents would kill you for like going out on the buoy 
and waiting for the freighter and going in the wake. It was 
great.
    Mr. Latta. Well, thank you very much. The gentlelady yields 
back and the Chair now recognizes the gentleman from 
Pennsylvania for 5 minutes.
    Mr. Costello. Well, picking up where Mrs. Dingell went off, 
whether it is her floating down the river or a lot of people 
wanting to throw us all in the river, I think there is probably 
some similarities there. But disposing of the levity there, let 
me ask a question of the panel with a little bit of context.
    Outdoor recreation is so diverse in scope and it means so 
much and I think that that is why it is so important to our 
country because people look at it and utilize it in many 
different ways. A good example in my district, the Schuylkill 
River National Heritage Area, for many years a portion of the 
Schuylkill River that runs through my district from Valley 
Forge National Park west towards the central part of the State 
had fallen victim to neglect.
    But through efforts of dedicated community leaders and 
volunteers, the area was transformed. Today, that National 
Heritage Area generates nearly 590 million annually and 
supports over 6,000 jobs. The resurgence of the health of the 
Schuylkill River and the connected landscape is a core reason 
outdoor recreation is flourishing in communities in my 
district.
    The commitment to revitalize the natural resources through 
the restoration of the Schuylkill River and the Schuylkill 
River Trail has given the region improved recreational assets 
and has been a trigger for economic development whether it is 
the free bike sharing program in the State of Pennsylvania, 
which was one of the first in the State, or kayak rental shops, 
fishing stores, restaurants, and hotels which have sprung up as 
a result.
    There is a host of public policy considerations which I 
would like you to share with me as to what we need to focus on 
as policymakers. Community planning, infrastructure--we passed 
a water infrastructure bill, which I think is very critical. 
Certain environmental protections, Ms. Dingell mentioned the 
LWCF which I and many others are strong supporters of from a 
recreational resource perspective. Mr. Bucshon mentioned how 
technology is playing an increasing role in the outdoor 
recreational movement, the role of riparian corridor buffers.
    And so here is my question. The multidimensional nature of 
outdoor recreation does fuel employment in a variety of 
sectors. Can you explain the positive ripple effects you see 
with the outdoor recreational industry as a catalyst for 
economic resurgence?
    And secondly, we talk about leveraging public- private 
partnerships; that can mean many different things. But with 
respect to your companies, organizations, and trade 
associations, how have you worked to employ this dual 
cooperation given the unique nature of the outdoor recreational 
opportunities in any given congressional district and what can 
we do to strengthen that? Related to that, what are the 
challenges that we face to make sure that we are providing an 
enhanced experience moving forward for all constituents? So I 
will keep it open-ended and ask all of you to just weigh in on 
that topic. Thanks.
    Mr. Landers. Well, it sounds like there was an investment 
in the river and the surrounding areas and it has turned into a 
job-creating entity and an enjoyment for your local citizens. 
So what we are advocating as part of the Outdoor Recreation 
Industry Roundtable is that yes, these are assets and when 
invested in them it is a cash cow. It is a positive return. So 
we are trying to work with Interior and Agriculture to 
encourage them to work with us and generate some public- 
private partnership opportunities to get a better return.
    So I would tell you one quick story that I heard over the 
last couple days. The Blue River in Colorado is part of the 
Forest Service campground inventory, and it was making money 
and it was great, but they ended up closing that whole 
campground because of the beetle kill. So instead of investing 
money to clear the trees that were causing potential danger 
they decided to close the whole thing.
    So not only did they lose the revenue, they lost the 
ability to--they also said, ``Oh, look, we have addressed part 
of the backlog by taking it off our books.'' So it was a double 
whammy. So investing in facilities and using public-private 
partnerships seems to be the way to go.
    Mr. Berejka. I will weigh in here also on the importance of 
public-private partnerships. Jeff spoke to how Columbia 
supports hundreds of not-for-profits. REI likewise supports 
hundreds of not- for-profits. Some overlap there, but between 
the two companies, you know, we are probably north of 500 
different not-for-profits that we support around the country. 
Those not-for-profits aren't just organizations they are 
people, and inside the organizations those people are extremely 
passionate about whether it is floating down a river or going 
on an RV trip.
    And so those nonprofit leaders can often find--and it 
sounds like this was your experience on the Schuylkill--they 
can find the best places for people to recreate and then with 
their volunteerism sort of be that leading edge of recreation 
infrastructure. But once they are at the leading edge, there is 
a role for Government to come in and provide support for the 
infrastructure. I think all of us agree that recreation assets 
in today's day and age are infrastructure and it is an 
important role for Government to be there as you consider 
infrastructure packages to include outdoors as infrastructure.
    Mr. Costello. That is a good point. Thank you. Mr. 
Chairman, I yield back.
    Mr. Harper [presiding]. The gentleman yields back. The 
Chair now recognizes the gentleman from Texas, Mr. Green, for 5 
minutes for questions.
    Mr. Green. Thank you, Mr. Chairman. And I would like to 
thank both Chairman Latta and Ranking Member Schakowsky for 
holding today's hearing.
    Outdoor recreation including hiking, fishing, hunting are 
quintessential American traditions and I am glad that we are 
taking time today to recognize the economic impact that this 
industry has and examine with our panel the benefits of the 
industry towards conservation. I have a very urban district in 
Houston, but all of us want to get out in the country because 
we are in a big city.
    And my experience is I learned to hunt with my father-in-
law and fish, and my son and I did the same thing. And if I 
could show it to you, my son and two of our grandsons in South 
Texas actually got an alligator last weekend, and it shows my 
two grandsons, one of them straddling the alligator. I just 
hope he didn't use my grandsons as bait. So outdoors is 
important, and in Texas come late November, early December, we 
see lots of RVs going to South Texas where my son and his 
family actually live. And there are a lot of winter Texans down 
there that enjoy the--so it is really important outdoor sports 
around the country, but particularly where I come from.
    In the early part of last century, many wildlife species 
were dwindling in numbers around our country. And at the behest 
of the firearms industry, Congress imposed an excise tax on the 
sale of firearms and ammunition products known as the Pittman- 
Robertson Act. Since its enactment, $11 billion has been 
distributed to States for conservation and outdoor education 
under Pittman-Robertson, making the firearms industry the 
largest contributor to conservation and access. I bring this up 
because I am surprised how many people do not know that hunting 
and conservation go hand in hand.
    And I would like to get a response from any of the panel on 
the Pittman- Robertson because Congress should be reauthorizing 
it. Anybody have a comment on it? No. Tell me about the ways 
your industry contributes to conservation efforts that most 
people don't about. I know REI obviously has a great record.
    Mr. Berejka. I mean I could elaborate. Of those 300 
organizations we support, the overwhelming majority are 
stewardship organizations that go into favorite places to 
recreate and they do the trail cleaning, they do the trail 
maintenance. They are the ones who are at the leading edge 
often of repairing infrastructure if it has fallen into 
disrepair.
    Ms. Mihalik. I will add that for Outward Bound one of the 
issues that we have struggled with when we open new course 
areas, so course areas anywhere, it could be a river or it 
could be a hiking trail where we want to take people, is often 
access. So we worked recently with the Chesapeake Conservancy 
to open a course on the Nanticoke River. There was not access 
to water. There was not access to campsites.
    But this is an amazing river in Maryland that people should 
be able to explore, so we were able to establish partnerships 
with the Conservancy, which is a conservation organization, 
National Park Service, and our local Department of Natural 
Resources to all come together to be able to open that area, 
and now we take about 60 kids per year down that river.
    Mr. Green. Anyone else? Going back to the example of 
Pittman-Robertson, one of the areas I have concern about is the 
aging demographic of sportsmen. If current trends continue, 
State wildlife agencies will not be able to rely on the same 
level of funding as older hunters hang up their hats and aren't 
replaced by younger hunters. As an industry and as a 
legislative body, what can we do to ensure that our children 
and grandchildren have the same access or expanded access to 
natural resources that we have grown up with?
    Ms. Roberts. So as part of the outdoor industry's efforts 
we have a nonprofit called the Outdoor Foundation, and the 
Outdoor Foundation's mission is to encourage a new generation 
of youth to get outside and recreate and that includes all of 
the activities that we covered in our economic report. And so 
our industry has come together to fund nonprofits across the 
country who take kids outside.
    And one key element that we found early on through really 
pilot and error is that the importance of mentorship and create 
an opportunity for that bond to form, whether it is in a family 
or it is just an older person who is experienced, whether in 
fishing, hunting, rock climbing, any sort of activity that 
takes a youth outside but repeatedly exposes the youth to that 
experience. That is how you build a lifelong love of these 
activities.
    And so what we have done is really bring together all of 
the industry's resources and then spend time ensuring that 
these local groups that are on the ground take these kids 
outside. And I think that is the most effective way to ensure 
that we do have the next generation that loves the land but 
also loves these activities.
    Mr. Green. Mr. Chairman, I know I am out of my time. But if 
I could give a commercial, I am the co-chair of the 
Congressional Sportsmen's Caucus along with my colleague Jeff 
Duncan from South Carolina, and we will soon be introducing the 
SHARE Act, the Sportsmen's Heritage and Recreational 
Enhancement Act, a compilation of a package of bills aimed at 
improving access to public lands and preserving and expanding 
sportsmen's issues. And I appreciate you letting me do the 
commercial.
    Mr. Harper. Very well-done commercial too, Mr. Green. 
Seeing there are no other Members here to ask questions for the 
panel, I want to thank each of you for taking time out of your 
busy schedule to be here and share your insights with us.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
a letter from Vista Outdoor and a letter from AMA. Seeing no 
objection, those are admitted.
    [The information appears at the conclusion of the hearing.]
    Mr. Harper. And pursuant to committee rules, I remind 
Members that they have 10 business days--I believe we may have 
something else we would like to submit for the record, and I 
will recognize the ranking member.
    Ms. Schakowsky. Thank you. The Low-Carbon USA letter from 
U.S. businesses and an EPA fact sheet.
    Mr. Harper. And, without objection, those are admitted to 
the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Harper. And pursuant to committee rules, I remind 
Members that they have 10 business days to submit additional 
questions for the record and I ask that witnesses submit their 
responses within 10 business days upon receipt of any 
questions. Without objection, this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    As the longest-standing committee on the Hill, Energy and 
Commerce has long sought to highlight industries and promote 
policies that will boost our economy and create more jobs. That 
is precisely why I am excited about the topic of our discussion 
today: the outdoor recreation industry. Increasingly, we are 
seeing the economic prowess of outdoor recreation and 
understanding how vital it is to a healthy American economy. In 
recent years, outdoor recreation has demonstrated its 
importance by injecting hundreds of billions of dollars into 
the U.S. economy and generating millions of jobs.
    The outdoor recreation industry has quickly become one of 
our Nation's largest economic sectors. From manufacturing to 
retail and accommodation to transportation, outdoor recreation 
affects many major U.S. economic sectors. It's an industry that 
is truly driven by the American consumer. Every year millions 
of Americans spend their hard-earned dollars on everything from 
gear and vehicles to trips and travel. In fact, Americans spend 
about $185 billion on outdoor recreation gear and roughly $702 
billion on everything from airfare and lodging to lift tickets 
and guided tours.
    I'd like to highlight Columbia Sportswear and the RV 
Industry Association joining us among our panel today, as my 
home State of Oregon, and specifically my district, benefit 
greatly from both. Northwood Manufacturing and Keystone RV 
design develop and manufacture RVs, helping to create jobs and 
economic stability in Oregon's Second District. Columbia, which 
is headquartered in Oregon, helps supports folks across the 
Beaver State. I am happy to have you here with us today and 
thank you for your work back home.
    Oregon is also home to some of our Nation's greatest public 
treasures. From Crater Lake National Park to the Columbia River 
Gorge and many other impressive public lands, Oregon offers an 
abundance of outdoor opportunities. Nearly 70% of all Oregon 
residents take advantage of these public lands and outdoor 
recreation opportunities annually. This high level of consumer 
engagement has resulted in almost 141,000 jobs and $4 billion 
in wages and salaries back home in Oregon alone.
    As Chairman Latta indicated in his opening, the 114th 
Congress passed the Outdoor REC Act which ensures outdoor 
recreation will be counted as part of the U.S. GDP. The data 
provided through this effort will help inform policymakers 
about how outdoor recreation is quickly becoming a powerful 
economic engine on public lands. The data will also help to 
guide budget and investment decisions at every level of 
Government, including how to boost rural economies, attract 
out-of-State employers and visitors, and create sound policies 
that preserve public lands for future generations.
    I look forward to exploring the economic and social 
benefits of outdoor recreation as well as any barriers that may 
stifle continued growth and success in this extremely important 
industry. I want to thank you all for being here with us today, 
and I look forward to hearing your testimony.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
